No. 19-433

3Jn the supreme £ourt of the lIniteb States
PATRICK EMANUEL SUTHERLAND,

Petitioner,
V.

UNTTED STATES OF AMERICA

Respondent.

CERTIFICATE OF SERVICE
I, Barry J. Pollack, a member of the Bar of this Court, certify that on this
21st day of January, 2020, I caused to be served by U.S. mail three copies of the

Reply Brief of the Petitioner on the following counsel:
Noel J. Francisco
U.S. Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
(202) 514-2217
su premectbriefs@usdoj.gov
Counsel for Respondent

I further certify that all parties required to be served have been served.

